<html>
<title> - MARKUP OF H. CON. RES. 102, H. CON. RES. 188, H. CON. RES. 46 AND H. CON. RES. 20</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 MARKUP OF H. CON. RES. 102, H. CON. RES. 188, H. CON. RES. 46 AND H. 
                              CON. RES. 20


=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, OCTOBER 19, 1999

                               __________

                           Serial No. 106-87

                               __________

    Printed for the use of the Committee on International Relations

                               <SNOWFLAKE>

                        U.S. GOVERNMENT PRINTING OFFICE
63-549 CC                       WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
          Parker H. Brent, Legislative Information Coordinator



                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Markup of H.Con. Res. 102........................................     1
Markup of H.Con. Res. 188........................................     1
Markup of H.Con. Res. 46.........................................     1
Markup of H.Con. Res. 20.........................................     1

                                APPENDIX

 H.Con. Res. 102, reprint of.....................................    10
 H.Con. Res. 188, reprint of.....................................    15
 H.Con. Res. 46, reprint of......................................    17
 H.Con. Res. 20, reprint of......................................    22



 MARKUP OF H. CON. RES. 102, H. CON. RES. 188, H. CON. RES. 46 AND H. 
                              CON. RES. 20

                              ----------                              


                       TUESDAY, OCTOBER 19, 1999

                  House of Representatives,
              Committee on International Relations,
                                           Washington, D.C.
    The Committee met, pursuant to notice, at 2:10 p.m. In Room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) Presiding.
    Chairman Gilman. The Committee will come to order.
    The Committee on International Relations meets today in 
open session pursuant to notice to mark up several resolutions.
    We will first consider H. Con. Res. 102 relating to the 
International Red Cross. The Chair lays the resolution before 
the Committee. Clerk will report the title of the resolution.
    Members will please take their seats.
    Ms. Bloomer. House Concurrent Resolution 102, Celebrating 
the 50th anniversary of the Geneva Conventions of 1949 and 
recognizing the humanitarian safeguards these treaties provide 
in times of armed conflict.
    Chairman Gilman. This resolution was referred to the 
Subcommittee on International Operations and Human Rights but 
was not acted upon. Without objection, the preamble and 
operative language of the resolution will be read in that order 
for amendment. The clerk will read.
    Ms. Bloomer. Whereas the Geneva Conventions of 1949 set 
basic humane----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read, and it is open to amendment at 
any point.
    [The information referred to appears in the appendix.]
    Chairman Gilman. This resolution was introduced by the 
gentleman from Texas, Mr. Johnson.
    I now recognize myself on the resolution.
    H. Con. Res. 102, celebrating the 50th anniversary of the 
Geneva Conventions of 1949, recognizes the important 
contribution the Geneva Conventions of 1949 have made to 
international humanitarian law. Last August, we observed the 
50th anniversary of these treaties. During this century, we 
have seen the scope and devastation of conflict and warfare 
reach hitherto unimaginable bounds where virtually every 
individual of a society involved in war is affected. In order 
to ameliorate and to the greatest extent possible mitigate the 
horrible devastation of modern warfare, the states parties to 
the Geneva Conventions have undertaken to recognize certain 
limitations and to humanize the laws of war.
    Are there any Members seeking recognition or seeking to 
offer amendments? Any Members seeking to make any comments?
    If not, the gentleman from Nebraska, Mr. Bereuter, is 
recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. The question is on a motion by the 
gentleman from Nebraska, Mr. Bereuter. All those in favor of 
the motion, signify by saying aye. All those opposed, say no.
    The ayes have it. The motion is agreed to. Further 
proceedings on this measure are postponed.
    We will now consider H. Con. Res. 188 relating to Greece 
and Turkey. The Chair lays the resolution before the Committee. 
The Clerk will report the title of the resolution.
    Ms. Bloomer. House Concurrent Resolution 188, a Concurrent 
Resolution commending Greece and Turkey for their mutual and 
swift response to the recent earthquakes in both countries by 
providing to each other humanitarian assistance and rescue 
relief.
    Chairman Gilman. This resolution is in the jurisdiction of 
the Full Committee. Without objection, the preamble and 
operative language of the resolution will be read in that order 
for amendment. The Clerk will read.
    Ms. Bloomer. Whereas Greece and Turkey, two long-standing 
allies of the United States and North Atlantic Treaty 
Organization----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point.
    [The information referred to appears in the appendix.]
    Chairman Gilman. This amendment was introduced by the 
distinguished gentleman from Florida, Mr. Bilirakis, and 
several other distinguished Members, including Mr. Burton and 
other cosponsors.
    I recognize myself for discussion on the proposal.
    The earthquake which devastated Turkey last August produced 
a swift reaction in neighboring Greece. Putting aside bitter 
and long-standing political differences, the people and 
government of Greece responded to their neighbor's plight with 
generous humanitarian assistance and support. The significance 
of Greece's response did not go unnoticed or unwelcomed in 
Turkey, as the Turkish government as well as media commented 
very positively about Greece's quick response to the tragedy.
    In September, a strong but fortunately less destructive 
earthquake struck Athens, and Turkey was the first country to 
send assistance in the form of search and rescue teams to 
locate survivors. In the aftermath of these two natural 
disasters, the Greek and Turkish foreign ministers have met and 
agreed to continue discussions building on the new-found 
goodwill between the Greek and Turkish people aimed at 
resolving the issues that have produced tensions between these 
two NATO allies of the United States.
    I commend the co-chairs of our Hellenic Issues Caucus, Mr. 
Bilirakis, the gentleman from Florida, and Ms. Maloney, the 
gentlelady from New York, for recognizing the significance of 
this thaw in the relations between our two important allies in 
the eastern Mediterranean and for their initiatives which put 
the Congress on record in support of continuing the dialogue 
between Greece and Turkey so that all outstanding differences 
can be resolved.
    I should also note that Mr. Burton of Indiana, a Senior 
Member of this Committee, who has supported a balanced approach 
to Greece and Turkey in the Committee and in the Congress is 
also an original co-sponsor of this resolution.
    Our government should do everything to assist and encourage 
this process of reconciliation between Greece and Turkey. I 
urge the Committee to unanimously adopt H. Con. Res. 188.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I appreciate your 
excellent statement, and I would like to associate myself with 
it. If staff finds it possible, I would like to be added as a 
co-sponsor for the resolution.
    Chairman Gilman. Without objection.
    Mr. Bereuter. Thank you, Mr. Chairman.
    Those of us that are friends of Greece and Turkey have 
noted for so many years the friction, to say the least, that 
has existed between Greece and Turkey during the NATO meetings 
in the North Atlantic Assembly, friction related to Turkey's 
interest in joining the European Union. But sometimes adversity 
brings people and countries together, and it seems that the 
government of Greece deserves particular commendation for 
initiating assistance to Turkey in the wake of the tragic 
earthquakes. Of course, as you pointed out, then Turkey 
responded to what was fortunately a less devastating earthquake 
in Greece.
    I think the government of Greece is demonstrating that it 
is interested in pursuing more positive relationships with 
Turkey, and Turkey has gratefully and gracefully responded.
    I noted also that Turkey was among the first countries to 
send earthquake relief to Taiwan, even though they certainly 
have their hands full at home with the aftermath of the 
tragedy. It is entirely appropriate that our colleagues are 
commending these two countries for the thaw in relationships 
and their response to each other's tragedies. I hope that it is 
an indication of more positive things to come.
    I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    I would like to stand in strong support of this resolution. 
I think both nations certainly put aside some of the 
grievances, some of the differences that we have seen in regard 
to the Cypres question and that both countries came and showed 
their humanitarian assistance with swift action. Hopefully 
actions of this nature perhaps can be built on where both 
countries could see the differences between them, especially on 
the issue of Cypres, are very limited, especially since 
Cypriots--all are Cypriots first, just about, and had been 
Greek and Turkish secondarily up until the 1974-1973 invasion.
    I would like to commend Mr. Bereuter and certainly urge all 
of us to support that issue. Thank you.
    Chairman Gilman. Thank you, Mr. Payne.
    Any other Members seeking recognition?
    If not, the gentleman from Nebraska, Mr. Bereuter, is 
recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska. All those in favor of the motion, 
signify by saying aye. Those opposed, say no.
    The ayes have it. The motion is agreed to. Further 
proceedings on this measure are postponed.
    We will now consider H. Con. Res. 46 relating to the war 
between Ethiopia and Eritrea. The Chair lays the resolution 
before the Committee. The Clerk will report the title of the 
resolution.
    Ms. Bloomer. House Concurrent Resolution 46, a Concurrent 
Resolution urging an end of the war between Eritrea and 
Ethiopia and calling on the United Nations Human Rights 
Commission and other human rights organizations to investigate 
human rights abuses in Congress in connection with the Eritrean 
and Ethiopian conflict.
    Chairman Gilman. This resolution was reported favorably 
without amendment by the Subcommittee on Africa. Without 
objection, the preamble and operative language of the 
resolution will be read in that order for amendment. The Clerk 
will read.
    Ms. Bloomer. Whereas peace and stability existed between 
Eritrea and Ethiopia following the 1991 ouster of the 
Mengistu----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point.
    [The information referred to appears in the appendix.]
    Chairman Gilman. The Chairman recognizes the distinguished 
Chairman of the Subcommittee on Africa, the gentleman from 
California, Mr. Royce, to introduce a resolution.
    Mr. Royce. Thank you, Mr. Chairman.
    As you mentioned, this resolution was marked up last week 
by the Africa Subcommittee. What this resolution does is urges 
an end to the 17-month civil war between Eritrea and Ethiopia. 
That war has now cost the lives of some 70,000 young men and 
women slaughtered in trench warfare.
    This resolution also calls for an investigation of human 
rights abuses in connection with the conflict. Hopefully, this 
resolution will help to bring home to both sides of the 
conflict that Congress has lost patience with the intransigence 
that keeps this war going. It is a war that neither side can 
afford. This legislation recognizes the Organization for 
African Unity framework which both sides claim to accept and 
provides an equitable basis to end the devastating conflict, 
and I would like to commend its author, Mr. Campbell.
    I have said civil war. I stand corrected in that. It is a 
war between people who were both once of one country, but this 
is one of the most tragic conflicts we have seen today.
    I want to thank Mr. Campbell, and I want to thank the other 
Members of the Subcommittee and urge its passage.
    Chairman Gilman. Thank you, Mr. Royce.
    Mr. Campbell?
    Mr. Campbell. Mr. Chairman, I think the Ranking Member 
might be more the appropriate to recognize first. I will take 
my place in my seniority.
    Chairman Gilman. Sorry. Mr. Payne.
    Mr. Payne. Thank you very much.
    Thank you, Mr. Campbell.
    Let me just say that, as we speak today, the Prime Minister 
of Algeria is convening a meeting trying to bring both sides 
together. I had the privilege to meet with the Honorable Dawit 
Johannes this morning, the Speaker of the House of the People's 
Republic of Ethiopia. At that meeting I was urging, although 
Ethiopia has now--Ethiopia originally agreed to the OAU 
framework which Eritrea initially did not agree to, now Eritrea 
is willing to accept the framework of the OAU but Ethiopia is 
unwilling.
    I think we do have to recall that it was Ethiopia that 
first agreed 7 or 8 months ago to the framework which said that 
they would have to move back to there positions before May 6th 
in the Bodme bottom--A area to have a withdrawal of beligerants 
out of the region, out of the area at that time. Eritrea did 
not agree. They now agree, but I think Ethiopia has moved them 
out of the region and feels that they should have agreed to it 
9 months ago when we agreed to it. But I think whoever agreed 
to it first and now that both sides have said they would agree 
to it just at different times, I think that they must put down 
these weapons of war and come together to see a cease-fire. 
Neither one can afford it, as has been mentioned.
    Isaias Afwerki and Meles Zenawi are ``relatives'' I 
understand. It makes no sense that 70,000 lives have been lost. 
We were looking toward Ethiopia and Eritrea as the future of 
Africa with new, young, intelligent, vibrant leaders very 
concerned about their people, and this conflict has certainly 
thrown a blanket over those statements, and so we urge the 
support of this resolution.
    Thank you.
    Chairman Gilman. Thank you, Mr. Payne.
    Mr. Campbell?
    Mr. Campbell. Mr. Chairman, the two previous speakers have 
eloquently stated the case. I have nothing further to add 
except a word of deep thanks first to my colleague from 
California, Mr. Royce, who has been a masterful Chairman of the 
Africa Subcommittee. But for his willingness and leadership we 
would not have this resolution before us.
    Thanks to my good friend and colleague, Mr. Payne.
    Chairman Gilman. Thank you.
    Mr. Rohrabacher.
    Mr. Rohrabacher. I will make this very quick as well, Mr. 
Chairman.
    I salute Congressman Royce. He has done a terrific job as 
Chairman of the Subcommittee.
    Let me just enter one note for the record. Chairman Royce 
and I have a constituent in Orange County who is an Eritrean 
who has had property in Ethiopia confiscated. We are watching 
this very closely, and this needs to go on the record. There 
have been human rights abuses by the Ethiopian government. If 
they claim they are putting this aside, we expect them to treat 
people fairly, especially when they have U.S. citizens in their 
family who live in my constituency.
    Chairman Gilman. I would just like to add that this is the 
same thing that many of us have been saying to the embassies of 
both countries for many months; the war must end.
    I commend the gentleman for introducing the measure.
    Are there any Members seeking recognition to offer 
amendments on this?
    If not, the gentleman from Nebraska, Mr. Bereuter, is 
recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. The question is now on the motion from the 
gentleman from Nebraska. All those in favor of the motion, say 
aye. The opposed, no.
    The ayes have it. The motion is agreed to. Further 
proceedings on this measure are postponed.
    I recognize the gentleman from Indiana, Mr. Burton.
    Mr. Burton. I will be brief. I know we have a vote pending 
on the floor, Mr. Chairman.
    I just wanted to say I was not here when we passed H. Con. 
Res. 188. I want to congratulate both Turkey and Greece on 
their humanitarian efforts with one another. Hopefully, our 
resolution will help spur more cooperation along that line in 
the future.
    Chairman Gilman. Thank you, Mr. Burton. We will include 
your remarks at the appropriate place in the record.
    We have one more resolution. We will now consider H. Con. 
Res. 20 relating to the northern part of Somalia. The Chair 
lays the resolution before the Committee. The Clerk will report 
the title of the resolution.
    Ms. Bloomer. House Concurrent Resolution 20, Concerning 
economic, humanitarian and other assistance to the northern 
part of Somalia.
    Chairman Gilman. This resolution was reported favorably 
without amendment by the Subcommittee on Africa. Without 
objection, the preamble and operative language of the 
resolution will be read in that order for amendment. The Clerk 
will read.
    Ms. Bloomer. Whereas the area in the northern part of 
Somalia, referred to as Somaliland----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point.
    [The information referred to appears in the appendix.]
    Chairman Gilman. I now recognize the distinguished Chairman 
of the Subcommittee on Africa, the gentleman from California, 
Mr. Royce, to introduce the resolution.
    Mr. Royce. Thank you, Mr. Chairman.
    I want to thank Mr. Campbell because this resolution draws 
much-needed attention to Somalia which, frankly, has ceased to 
exist as a nation as a result of fighting between factions led 
by self-serving warlords.
    This resolution recognizes that the northern part of 
Somalia has achieved a significant level of economic and social 
stability, and this should be commended. The resolution, 
however, should not be construed as calling for diplomatic 
recognition of Somaliland. In fact, the resolution calls for 
all Somali parties to work with the international community to 
achieve a permanent end to the civil strife there and the 
adoption of a permanent government structure most conducive to 
the well-being and basic human rights of all Somali people. I 
would like to commend Mr. Campbell for authoring and Mr. Payne, 
the Ranking Member of the Africa Subcommittee, for co-
sponsoring this resolution.
    Chairman Gilman. Thank you, Mr. Royce.
    Mr. Payne?
    Mr. Payne. I yield to Mr. Campbell this time, and then I 
will take up the second part if we don't have enough time.
    Mr. Campbell. Thanks very much.
    Thank you, Mr. Payne, for your leadership in the area and 
for working so carefully with me on this.
    Again, my thanks to Chairman Royce for scheduling this, for 
allowing this to be considered and mostly to you, Chairman 
Gilman, who scheduled this in such a time that it might be 
coincident with the visit of President Egal of Somaliland.
    I would simply add there is nothing in the resolution one 
way or the other. It is neutral on the question of recognition. 
Its purpose is to help people in need.
    I yield back.
    Chairman Gilman. Thank you.
    Mr. Payne?
    Mr. Payne. Thank you very much.
    I also appreciate the introduction of this resolution by 
the Chairman. Mr. Royce has done an outstanding job.
    Mr. Campbell and I had the opportunity to travel to 
Somaliland. We saw the difference of Somaliland from the trips 
that I have taken to Mogadishu in Somalia. Schools are working. 
Hospitals are working. They have a semblance of order.
    As you know, Somaliland and Somalia were forced together, 
both under different colonial leaders, colonial powers, and the 
whole system was different; and Somaliland has a leg up because 
they were self-governing where Somalia was still governed by 
the colonial people. I certainly support this. Regarding the 
this whole question of whether recognition should happen, I 
would certainly be in favor of having that discussion at some 
other time. But as my colleague certainly drew out, this does 
not talk about recognition, it just talks about support.
    Chairman Gilman. Thank you, Mr. Payne.
    The story of the Islamic fundamentalist regime of Sudan 
toward our Nation, a regrettably ongoing war between Ethiopia 
and Eritrea and the violent clashes between the warlords in 
southern Somalia all bear watching. Because of these problems 
it is in our National interest to identify those portions of 
the horn that have demonstrated a degree of stability and 
governance and encourage northern Somalia and particularly the 
area once defined as the British protector of Somaliland as one 
such area.
    The resolution which Mr. Campbell and Mr. Payne introduced 
after their visit to the region is a modest effort in that 
regard, and I support the resolution.
    Are there any other Members seeking recognition or offering 
amendments?
    If not, the gentleman from Nebraska, Mr. Bereuter, is 
recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. The question is on the motion by the 
gentleman from Nebraska. All those in favor of the motion, say 
aye. Those opposed, say no.
    The ayes have it. The motion is agreed to. Further 
proceedings on this measure are postponed.
    The Committee is now adjourned. Thank you.
    [Whereupon, at 2:30 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            October 19, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T3549.001
    
    [GRAPHIC] [TIFF OMITTED] T3549.002
    
    [GRAPHIC] [TIFF OMITTED] T3549.003
    
    [GRAPHIC] [TIFF OMITTED] T3549.004
    
    [GRAPHIC] [TIFF OMITTED] T3549.005
    
    [GRAPHIC] [TIFF OMITTED] T3549.006
    
    [GRAPHIC] [TIFF OMITTED] T3549.007
    
    [GRAPHIC] [TIFF OMITTED] T3549.008
    
    [GRAPHIC] [TIFF OMITTED] T3549.009
    
    [GRAPHIC] [TIFF OMITTED] T3549.010
    
    [GRAPHIC] [TIFF OMITTED] T3549.011
    
    [GRAPHIC] [TIFF OMITTED] T3549.012
    
    [GRAPHIC] [TIFF OMITTED] T3549.013
    
    [GRAPHIC] [TIFF OMITTED] T3549.014
    
    [GRAPHIC] [TIFF OMITTED] T3549.015
    
    [GRAPHIC] [TIFF OMITTED] T3549.016
    
                                 <ALL>
</pre></body></html>
